1a
APPENDIX A
In the Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-18-00025-CV
BBB INDUSTRIES, LLC, Appellant
v.
CARDONE INDUSTRIES, INC., Appellee
On Appeal from the 17th District Court
Tarrant County, Texas
Trial Court No. 017-271617-14
Before Sudderth, C.J.; Kerr, J.1
Memorandum Opinion by Justice Kerr
MEMORANDUM OPINION
Cardone Industries, Inc. is a Pennsylvania
corporation that produces and sells remanufactured
aftermarket automotive parts and products, including
brake calipers, power-steering products, gears, and
rack-and-pinion products. BBB Industries, LLC is an
Justice Bill Meier was a member of the original panel but has
since retired. Therefore, the two remaining justices decided the
case. See Tex. R. App. P. 41.1(b).
1

2a
Alabama company that directly competes with
Cardone. This case arises from BBB’s alleged
misappropriation of Cardone’s trade secrets and
confidential information.
In 2014, Cardone sued BBB and Joel Farina, a
Texas resident and former Cardone employee, in
Tarrant County, Texas. Cardone claimed that Farina
stole its trade secrets and confidential information
related to its general business model when he
resigned from Cardone and jumped ship to BBB in
2013. BBB and Farina answered and entered general
appearances. Over three years after it filed suit,
Cardone amended its petition to allege that in 2010,
2011, and 2014, BBB misappropriated Cardone’s
trade-secret and confidential information related
more specifically to Cardone’s power-steering
business with National Auto Parts Association
(NAPA),
a
Georgia-headquartered
company.
Cardone’s new allegations involved BBB conduct both
before and after Farina decamped to BBB.
BBB filed a special appearance concerning
Cardone’s NAPA-based misappropriation allegations,
arguing that because those allegations were severable
claims, BBB could specially appear to challenge the
trial court’s personal jurisdiction over it as to those
claims even though it had already generally appeared
in the suit three years earlier. See Tex. R. Civ. P.
120a(1) (“A special appearance may be made as to an
entire proceeding or as to any severable claim involved
therein.” (emphasis added)). The trial court denied
the special appearance, and BBB filed this
interlocutory appeal. See Tex. Civ. Prac. & Rem. Code
Ann. § 51.014(a)(7). Concluding that even if a party

3a
may lodge a special appearance and theoretically
obtain a severance under these circumstances, we will
affirm because Cardone’s new allegations are so
interwoven with its initial misappropriation
allegations that they involve the same facts and
issues, and the trial court thus properly exercised its
discretion in denying BBB’s special appearance.
Background
Cardone alleges that starting in 2010, BBB began
a campaign to overtake Cardone’s market share. At
that time, BBB “had a relatively minor presence” in
the automotive-parts retail aftermarket, and Cardone
was NAPA’s exclusive power-steering vendor. BBB
decided that it wanted to enter the power-steering
market and sell power-steering products to NAPA.
Cardone contends that to that end, BBB actively
solicited NAPA to get Cardone’s trade-secret
information. According to Cardone, NAPA voluntarily
offered up a copy of Cardone’s power-steering
arrangement sheet—a document containing the
Cardone–NAPA contract’s essential terms—which
enabled BBB to grasp completely the terms of
Cardone’s power-steering program with NAPA.
Cardone alleges that BBB knew that the
arrangement sheet was a trade secret and used it to
“unfairly and illegally advance its economic interest
to enter the power steering market sector” to
Cardone’s detriment. Cardone further alleges that in
addition to trade secrets, BBB also obtained
Cardone’s confidential information when, in March

4a
2011, it acquired Cardone’s core2-pricing information
for NAPA power steering.
In early 2013, Farina, who worked from his Texas
home3 as Cardone’s Senior Vice President of Retail
Accounts, began working toward ending his
employment with Cardone by giving six months’
notice of his desire to terminate a particular
employment agreement. In his position with Cardone,
Farina “played a key role in developing, among other
things, Cardone’s confidential sales and marketing
strategies and plans, pricing discount strategies and
plans, and business development plans and
strategies” and “regularly consulted with other
Cardone executives and key sales employees
regarding such strategies and plans.” Farina also had
access to and gained knowledge of Cardone’s trade
secrets and confidential information, including sales
and marketing strategies, costs, credit and financing
information, pricing and discount strategies,
customer preferences and ordering history, business
processes, and supplier information. During his
employment with Cardone, Farina signed several
agreements designed to protect Cardone’s tradesecret and confidential information from disclosure.
In August 2013, Farina resigned from his position
at Cardone to work for BBB as its Senior Vice
President–Aftermarket Retail Sales. Shortly before
A core is an element of an automotive part that is refurbished
and reused in a remanufactured part.
2

Farina started working for Cardone in 1991 and moved to
Texas in 1997.
3

5a
his resignation, Farina had disclosed to BBB
Cardone’s fill-rate strategy with NAPA.4 Immediately
after his resignation, Farina downloaded documents
containing Cardone’s confidential, proprietary, and
trade-secret information from Cardone’s computer
systems to his personal and BBB-issued electronic
devices. These documents included information
related to Cardone’s brake-caliper product line and its
power-steering business with NAPA.
Sometime in 2014, BBB allegedly obtained
confidential information related to Cardone’s pricing
discounts for NAPA power steering, enabling BBB to
match or beat Cardone’s pricing. Cardone claims that
BBB used and continues to use this information—
along with the arrangement sheet it obtained in 2010
and the core-pricing information it received in 2011—
to unfairly compete with and outbid Cardone and to
win power-steering business from NAPA, causing
“tens of millions of dollars in damages to Cardone.”
In April 2014, Cardone sued BBB and Farina in
Tarrant County, Texas, claiming that Farina took
Cardone’s confidential, proprietary, and trade-secret
information when he left Cardone to work for BBB
and that he and BBB used and continued to use that
information to unfairly compete with Cardone.
Cardone
alleged
claims
for
trade-secret
misappropriation, misappropriation of confidential
information, unfair competition by misappropriation,
conversion, breach of fiduciary duty, breach of
According to Farina, fill rates refer to the percentage of a
customer’s order that a vendor is able to fulfill in one shipment.
4

6a
contract, and conspiracy. Because Farina is a Texas
resident and because Cardone alleged that Farina’s
acts of misappropriation happened in Texas, BBB and
Farina did not contest personal jurisdiction over
them.
In June 2015, a Tarrant County grand jury
indicted Farina on multiple felony counts, including
breach of a computer system and trade-secret theft.
Nearly two years later, Farina pleaded guilty to theft
of trade secrets (a third-degree felony) pursuant to a
plea bargain, and a Tarrant County Criminal District
Court sentenced him to 10 years’ confinement,
probated for three years, plus a $10,000 fine and
$150,000 in restitution.5 See Tex. Penal Code Ann.
§ 31.05.
Cardone’s original and first amended petitions
made no mention of BBB’s allegedly obtaining
Cardone’s trade-secret and confidential information
related to its NAPA power-steering business in 2010,
2011, and 2014, alleging misappropriation of broad
categories of information. But in October 2017,
Cardone amended its petition a second time to add
new factual allegations under the heading “BBB’s
Additional Acts of Misappropriation of Cardone’s
Trade Secrets.” Cardone now specifically alleged that
in 2010, 2011, and 2014, BBB obtained Cardone’s
trade-secret and confidential information related to
Cardone’s power-steering business with NAPA and
The plea bargain’s terms included Farina’s resigning from BBB
and his returning all confidential, proprietary, and trade-secret
information to Cardone.
5

7a
that it used and continues to use that information to
unfairly compete with Cardone. Cardone added no
new causes of action.
BBB then filed a special appearance as to
Cardone’s
NAPA-related
misappropriation
allegations, arguing that because those were
severable claims with little or no connection to Texas,
the trial court should dismiss them for lack of
personal jurisdiction. See Tex. R. Civ. P. 120a(1).
After a hearing, the trial court denied the special
appearance without stating the grounds for its ruling.
No findings of fact and conclusions of law were
requested or filed.
On appeal, BBB raises two issues: (1) whether
rule 120a allowed BBB to enter a special appearance
challenging the trial court’s specific personal
jurisdiction6
over
Cardone’s
newly
added
7
misappropriation claims, and (2) if so, whether the
trial court erred by denying BBB’s special appearance
Cardone does not assert that BBB is subject to general
jurisdiction in Texas.
6

On appeal, BBB gives the impression that Cardone’s
complaints regarding BBB’s misappropriation of Cardone’s
trade-secret and confidential information related to its NAPA
power-steering business were a surprise and are unrelated to
Cardone’s allegations in its original petition. But the record
shows that BBB knew from the start of this case that power
steering was at issue: BBB itself sought discovery from Cardone
related to both parties’ efforts from 2010 to the present to obtain
NAPA’s power-steering business. BBB also made several
statements in motions and at hearings declaring that this case
is about brake-caliper and power-steering products.
7

8a
because Cardone neither alleged nor proved that the
misappropriation occurred in Texas or that BBB
directed its use of the misappropriated information at
Texas.
Standards of Review and Applicable Law
When analyzing the denial of a special
appearance, we review the trial court’s factual
findings for legal and factual sufficiency but review
its legal conclusions de novo because whether a court
has personal jurisdiction over a defendant is a legal
question. BMC Software Belg., N.V. v. Marchand, 83
S.W.3d 789, 794-95 (Tex. 2002). When, as here, a trial
court does not issue findings and conclusions, we infer
all facts that are necessary to support the judgment
and are supported by the evidence. See id. at 795. But
when the appellate record contains both the reporter’s
and clerk’s records, these implied findings are not
conclusive and may be challenged for both legal and
factual sufficiency. Id. We must affirm the trial
court’s ruling if we can uphold it on any legal theory
supported by the evidence. SITQ E.U., Inc. v. Reata
Rests., Inc., 111 S.W.3d 638, 645 (Tex. App.—Fort
Worth 2003, pet. denied); see also Dukatt v. Dukatt,
355 S.W.3d 231, 237 (Tex. App.—Dallas 2011 pet.
denied).
Rule 120a provides that “[a] special appearance
may be made as to an entire proceeding or as to any
severable claim involved therein.” Tex. R. Civ. P.
120a(1). We review for an abuse of discretion a trial
court’s decision on whether a claim is severable under
rule 120a. Man Indus. (India) Ltd. v. Bank of TokyoMitsubishi UFJ, Ltd., 309 S.W.3d 589, 591 (Tex.

9a
App.—Houston [14th Dist.] 2010, no pet.) (applying
abuse-of-discretion
standard
to
severability
determination under rule 120a(1)); see Shen v. Chen,
No. 05-17-00280-CV, 2018 WL 1407099, at *2 (Tex.
App.—Dallas Mar. 21, 2018, no pet.) (mem. op.)
(same); see also Guar. Fed. Sav. Bank v. Horseshoe
Operating Co., 793 S.W.2d 652, 658 (Tex. 1990) (op.
on reh’g) (reviewing trial court’s severance decision
for an abuse of discretion). A claim is severable if (1)
the controversy involves more than one cause of
action, (2) the severed claim would be the proper
subject of a lawsuit if asserted independently, and (3)
the claim to be severed is not so interwoven with the
remaining action that they involve the same facts and
issues. F.F.P. Operating Partners, L.P. v. Duenez, 237
S.W.3d 680, 693 (Tex. 2007) (op. on reh’g). “The
controlling reasons for a severance are to do justice,
avoid prejudice and further convenience.” Guar. Fed.
Sav. Bank, 793 S.W.2d at 658.
When evaluating severability, a trial court must
generally accept the plaintiff’s pleadings as true and
then determine whether severance is appropriate. In
re Reynolds, 369 S.W.3d 638, 650-51 (Tex. App.—
Tyler 2012, orig. proceeding); In re Liu, 290 S.W.3d
515, 520 (Tex. App.—Texarkana 2009, orig.
proceeding) (citing Jones v. Ray, 886 S.W.2d 817, 820
(Tex. App.—Houston [1st Dist.] 1994, orig.
proceeding) (op. on reh’g)); see Aviation Composite
Techs. v. CLB Corp., 131 S.W.3d 181, 188 (Tex. App.—
Fort Worth 2004, no pet.) (concluding that because
the trial court was not required to hold an evidentiary
hearing on the motion to sever, it could have decided
the severance issue on the parties’ pleadings).

10a
An appearance that does not comply with rule
120a is a general appearance and waives a party’s
objection to personal jurisdiction. Tex. R. Civ. P.
120a(1) (“Every appearance, prior to judgment, not in
compliance with this rule is a general appearance.”).
Here, if the trial court found that Cardone’s NAPArelated misappropriation allegations are not
severable, then BBB cannot challenge personal
jurisdiction as to those claims because it has already
generally appeared. See id.; Shen, 2018 WL 1407099,
at *2. Thus, we must first consider whether the trial
court would have abused its discretion by finding that
Cardone’s
NAPA-related
misappropriation
allegations are not severable claims.8 See Shen, 2018
WL 1407099, at *2-4 (examining whether
intervention claims filed after nonresident defendant
had generally appeared were severable under rule
120a).

We note this case’s unusual procedural posture: a nonresident
defendant’s filing a special appearance concerning claims added
after that defendant has generally appeared in the suit. As
noted, rule 120a(1) allows the filing of a special appearance as to
severable claims. See Tex. R. Civ. P. 120a(1). And the plain
language of the civil practice and remedies code contemplates
this situation because it provides that an interlocutory appeal
from a denial of a special appearance automatically stays the
trial pending resolution of the appeal in certain situations in
which the plaintiff has filed a new cause of action and the
defendant files a special appearance as to that cause of action.
See Tex. Civ. Prac. & Rem. Code Ann. § 51.014(a)(7), (b),
(c)(2)(C).
8

11a
Analysis
The parties disagree about whether Cardone’s
NAPA-based misappropriation allegations are
separate claims. BBB argues that they are: the
allegations present a new and discrete set of facts
giving rise to separate grounds for judicial relief and
damages. Cardone counters that the terms “claim”
and “cause of action” are synonymous and that
because
its
NAPA-based
misappropriation
allegations are merely additional factual allegations
supporting its already-pleaded causes of action, those
allegations cannot be split into separate claims. But
we may skirt that quagmire by assuming, without
deciding,
that
Cardone’s
NAPA-based
misappropriation allegations satisfy the first two
prongs of the severability test and so focus only on the
interrelatedness issue, keeping in mind the
importance of doing justice, avoiding prejudice, and
optimizing convenience. See In re State, 355 S.W.3d
611, 614 (Tex. 2011) (orig. proceeding).
BBB’s liability for Cardone’s misappropriationrelated causes of action hinges on whether BBB or
Farina, together or separately, wrongfully acquired,
disclosed,
or
used
Cardone’s
trade-secret,
confidential, or proprietary information. Texas law
protects these separate types of information similarly.
See Alliantgroup, L.P. v. Feingold, 803 F. Supp. 2d
610, 624 & n.3 (S.D. Tex. 2011) (collecting cases).
Misappropriation is not limited to improperly
acquiring trade secrets; it includes using or disclosing
them. Under the common law, “liability for a
misappropriation of trade secrets claim occurs if one
discloses or uses another’s trade secrets, without

12a
privilege to do so, if (a) he discovers the secret by
improper means, or (b) his disclosure or use
constitutes a breach of confidence placed in him by the
owner of the secret.” Twister B.V. v. Newton Research
Partners, L.P., 364 S.W.3d 428, 438 (Tex. App.—
Dallas 2012, no pet.). Similarly, to prevail on a
statutory misappropriation claim,9 a plaintiff must
show that the defendant either (1) acquired the trade
secrets knowing or with reason to know that they
were improperly obtained or (2) disclosed or used the
trade secrets without express or implied consent. See
Tex. Civ. Prac. & Rem. Code Ann. § 134A.002(3). To
establish unfair competition by misappropriation, the
plaintiff must prove that in competition with the
plaintiff, the defendant used a product that the
plaintiff created through extensive time, labor, skill,
and money, “thereby gaining a special advantage in
that competition, (i.e., a ‘free ride’) because [the]
defendant is burdened with little or none of the
expense incurred by the plaintiff.” Dresser-Rand Co.
v. Virtual Automation Inc., 361 F.3d 831, 839 (5th Cir.
2004) (quoting U.S. Sporting Prods., Inc. v. Johnny
Stewart Game Calls, Inc., 865 S.W.2d 214, 218 (Tex.
In 2013, the legislature enacted the Texas Uniform Trade
Secrets Act (TUTSA). See Act of Apr. 23, 2013, 83rd Leg., R.S.,
ch. 10, § 1, secs. 134A.001-.008, 2013 Tex. Sess. Law Serv. 13,
13-14 (amended 2017) (current version at Tex. Civ. Prac. & Rem.
Code Ann. §§ 134A.001-.008). TUTSA applies to trade-secret
misappropriations occurring on or after September 1, 2013, but
both misappropriations made before that date and continuing
misappropriations beginning before that date are governed by
the law in effect before that date. See Act of Apr. 23, 2013, 83rd
Leg., R.S., ch. 10, §§ 3-4, 2013 Tex. Sess. Law Serv. 13, 14. We
express no opinion on whether TUTSA applies to Cardone’s
misappropriation claims.
9

13a
App.—Waco 1993, writ denied)); see Leader’s Inst.,
LLC v. Jackson, No. 3:14-CV-3572-B, 2017 WL
5629514, at *5 (N.D. Tex. Nov. 22, 2017) (assuming
that plaintiff’s trade secret was the “product” in its
claim for unfair competition by misappropriation).
BBB
contends
that
the
NAPA-based
misappropriation claims are not interwoven with
Cardone’s other misappropriation claims because
each set of claims


involves different wrongful acts (allegedly
receiving information from Farina versus
receiving information from NAPA);



occurred during different time periods (2013
versus 2010, 2011, and 2014);



relates to different markets (brake calipers10
versus power steering);



involves different actors; and



gives rise to different damages.

But here, Cardone has pleaded a continuing
misappropriation by BBB for the purpose of
competing with it generally in the automotive-parts
retail aftermarket. See Tex. Civ. Prac. & Rem. Code
Ann. § 16.010(b) (“A misappropriation of trade secrets
BBB argues that Farina’s theft was confined to Cardone’s
trade-secret and confidential information related to brake
calipers. Cardone’s pleadings, however, do not so limit Farina’s
theft.
10

14a
that continues over time is a single cause of action and
the limitations period described by Subsection (a)
begins running without regard to whether the
misappropriation is a single or continuing act.”);
Accelerated Wealth, LLC v. Lead Generation & Mktg.,
LLC, No. 04-12-00647-CV, 2013 WL 1148923, at *4
(Tex. App.—San Antonio Mar. 20, 2013, no pet.)
(mem. op.) (“The operative facts of the litigation are
not isolated to the events occurring pre-petition,
especially in the context of the misappropriation of
trade secrets where the wrongful acts of
misappropriation can be on-going.”). BBB’s alleged
misappropriation of Cardone’s confidential and tradesecret information started in 2010 and 2011 when
BBB acquired the arrangement sheet and corepricing information for Cardone’s power-steering
business with NAPA and used that information to
compete with Cardone.
BBB’s misappropriation allegedly continued
when, in 2013, Farina stole wide swaths of Cardone’s
confidential,
proprietary,
and
trade-secret
information and shared that information with BBB.
According to Cardone’s pleadings, this information
was not limited to a specific Cardone product line and
even included information related to Cardone
customers with whom Farina was not involved. BBB
used this information to compete with Cardone, and
then, in 2014, BBB obtained Cardone’s pricing
discounts for NAPA power steering and used that
information, too, to compete with Cardone. Cardone
alleges that BBB—both with and without Farina—
has acquired and has used and continues to use
Cardone’s confidential, proprietary, and trade-secret

15a
information to unfairly compete with Cardone in the
brake-caliper and power-steering markets.
In short, Cardone’s misappropriation claims arise
out of an alleged course of conduct undertaken by
BBB (both with and without Farina) that started in
2010 and, according to Cardone’s pleadings, is
continuing. Because Cardone has broadly pleaded
that Farina took and disclosed to BBB Cardone’s
confidential,
proprietary,
and
trade-secret
information—which could have included information
related to Cardone’s power-steering business with
NAPA—and that BBB’s use of the information it
obtained from Farina and from other sources is
ongoing, we conclude that Cardone’s Farina-based
claims and its NAPA-based claims involve some of the
same issues, facts, and evidence.
Here, the court could have found that given the
continuing and overlapping nature of Cardone’s
misappropriation claims, splitting this suit by the
sources and locations of the trade secrets’
misappropriations would be unworkable and that
justice and convenience would be better served by
allowing a single factfinder to determine all Cardone’s
misappropriation claims against BBB in a single suit.
And because BBB has already agreed to defend
against Cardone’s Farina-based misappropriation
claims here, it will not be unduly prejudiced by having
also to defend against Cardone’s NAPA-based
misappropriation claims here.
Based on Cardone’s pleadings, we conclude that
the trial court would not have abused its discretion by
finding that Cardone’s NAPA-based misappropriation

16a
claims are not severable. Because the trial court
would not have abused its discretion by so finding,
and because BBB’s appearance as to the other claims
in the case constitutes a general appearance, the trial
court did not err by denying BBB’s special
appearance.11 See Shen, 2018 WL 1407099, at *4;
Man Indus., 309 S.W.3d at 593.
Accordingly, we overrule BBB’s two issues.12
Consistent with the cases cited in our standard-of-review
section, BBB asserts that the trial court was limited to the
pleadings when determining severability. We note, however,
that some courts have considered evidence when ruling on a
severance issue. See, e.g., Shen, 2018 WL 1407099, at *3. But
even if we considered the parties’ evidence, our holding would be
the same. According to Cardone’s special-appearance evidence,
Farina disclosed Cardone’s fill-rate strategy with NAPA to BBB
while he still worked for Cardone, and the information he
downloaded to his BBB-issued laptop included information
related to Cardone’s power-steering business with NAPA. Farina
testified at the special-appearance hearing that fill-rate
strategies are not confidential information and that although he
downloaded the NAPA power-steering information to his BBB
computer in 2013, he never gave that information to BBB and
never worked on the NAPA account while he was employed at
either Cardone or BBB. But without fact findings, we must infer
all facts that are necessary to support the judgment and are
supported by the evidence. See BMC Software, 83 S.W.3d at 795.
Viewed through this prism, the evidence supports Cardone’s
pleadings.
11

Even though we do not address jurisdictional contacts as they
relate to Cardone’s power-steering trade secrets or confidential
information, our holding is consistent with the supreme court’s
jurisdictional analysis in Moncrief Oil International Inc. v. OAO
Gazprom, 414 S.W.3d 142 (Tex. 2013). There, Moncrief (a Texasbased company) met with Gazprom (a Russian company) in
Moscow and Washington, D.C. concerning a proposed joint
12

17a
Conclusion
Having overruled both of BBB’s issues, we affirm
the trial court’s order denying BBB’s special
appearance.
/s/ Elizabeth Kerr
Elizabeth Kerr
Justice
Delivered: May 9, 2019

business venture in Texas. Id. at 148. During these meetings,
Moncrief gave Gazprom trade secrets related to the venture. Id.
The following year, Moncrief provided Gazprom with updated
versions of the trade secrets at meetings in Houston, Boston, and
Fort Worth. Id. In analyzing the jurisdictional contacts on a
claim-by-claim basis, see id. at 150-51 (citing Seiferth v.
Helicopteros Atuneros, Inc., 472 F.3d 266, 274-75 (5th Cir.
2006)), the supreme court did not split Moncrief’s trade-secretmisappropriation claim according to where and when Gazprom
acquired Moncrief’s trade secrets. See id. at 151-54. Rather, the
court concluded that Gazprom’s voluntary attendance at the two
meetings in Texas during which it received Moncrief’s trade
secrets for the purpose of considering a joint venture in Texas
with a Texas company yielded sufficient contacts to establish
jurisdiction over Moncrief’s trade-secret-misappropriation
claim, even though Gazprom had also obtained other versions of
Moncrief’s trade secrets at different times outside of Texas. Id.
at 153-54.

18a
APPENDIX B
CAUSE NO. 017-271617-14
CARDONE
INDUSTRIES, INC.
Plaintiff,
v.
JOEL FARINA &
BBB INDUSTRIES,
LLC,
Defendants.

§
§
IN THE
§ DISTRICT COURT
§
§
§
OF TARRANT
§ COUNTY, TEXAS
§
§
§ 17TH JUDICIAL
§
DISTRICT
§

ORDER DENYING DEFENDANT BBB
INDUSTRIES, LLC’S SPECIAL APPEARANCE
AS TO NEW, SEVERABLE CLAIMS IN
CARDONE’S SECOND AMENDED ORIGINAL
PETITION
Upon consideration of Defendant, BBB
Industries, LLC’s (“BBB”) Special Appearance as to
New, Severable Claims in Cardone’s Second Amended
Original Petition and Plaintiff’s response thereto, the
exhibits in the record, and argument of counsel, if
any, it is hereby ORDERED that BBB’s Special
Appearance is DENIED.

19a
IT IS SO ORDERED.
Signed this 28th day of December, 2017.
/s/ Melody Wilkinson
HONORABLE MELODY WILKINSON

20a
APPENDIX C
THE SUPREME COURT OF TEXAS
Orders Pronounced June 5, 2020
***
ORDERS ON PETITIONS FOR REVIEW
THE FOLLOWING PETITIONS FOR REVIEW ARE
DENIED:
***
19-0649
BBB
INDUSTRIES,
LLC
v.
CARDONE
INDUSTRIES, INC.; from Tarrant County; 2nd Court
of Appeals District (02-18-00025-CV, ___ SW3d ___,
05-09-19)
***

21a
APPENDIX D
THE SUPREME COURT OF TEXAS
Post Office Box 12248
Austin, Texas 78711
(512) 463-1312
October 18, 2019
Mr. Michael Kevin Queenan
Queenan Law Firm, P.C.
731 Station Drive
Arlington, TX 76015
* DELIVERED VIA E-MAIL *
Mr. David E. Keltner
Kelly Hart & Hallman LLP
201 Main Street, Suite 2500
Fort Worth, TX 76102
* DELIVERED VIA E-MAIL *
Mr. Thomas R. Phillips
Baker Botts L.L.P.
98 San Jacinto Blvd., Suite 1500
Austin, TX 78701
* DELIVERED VIA E-MAIL *
Mr. Richard P. Hogan Jr.
Hogan & Hogan
Pennzoil Place
711 Louisiana, Suite 500
Houston, TX 77002
* DELIVERED VIA E-MAIL *

22a
Mr. Thomas W. Sankey
Duane Morris LLP
1330 Post Oak Blvd., Suite 800
Houston, TX 77056
* DELIVERED VIA E-MAIL *
RE:

Case Number: 19-0649
Court of Appeals Number: 02-18-00025-CV
Trial Court Number: 017-271617-14

Style:

BBB INDUSTRIES, LLC
v.
CARDONE INDUSTRIES, INC.

Dear Counsel:
Pursuant to TEX. R. APP. P. 55.1, you are
requested to file briefs on the merits in the abovestyled case. Please refer to TEX. R. APP. P. 55 for the
requirements of petitioners’ and respondents’ briefs.
The petition for review remains under consideration
by this Court. The briefing schedule is outlined below.
See TEX. R. APP. P. 55.7.
Petitioner/s
shall
November 18, 2019.

file

their

brief

by

Respondent/s shall file their response brief by
December 09, 2019.
Petitioner/s shall
December 27, 2019.

file

any

reply

brief

by

Pursuant to TEX. R. APP. P. 9.2(c)(2) all
documents (except documents submitted under seal)

23a
must be e-filed through eFileTexas.gov. You may file
up to midnight on the due date.
PLEASE NOTE: For cases filed after February
20, 2018, attorneys should verify that the entire
record for the case was automatically uploaded to the
Court through the attorney portal. The attorney
portal can be accessed by attorneys only through the
Court’s
website
at
https://attorneyportal.txcourts.gov/.
Contact
the
Clerk’s Office at 512-463-1312 if any items are
missing from the record.
Sincerely,
/s/ Blake A. Hawthorne
Blake A. Hawthorne, Clerk
by Claudia Jenks,
Chief Deputy Clerk
cc: Mr. Matthew David Stayton
(DELIVERED VIA E-MAIL)
Corey M. Weideman
(DELIVERED VIA E-MAIL)
Mr. Evan A. Young
(DELIVERED VIA E-MAIL)
Mr. Carlos Lopez
(DELIVERED VIA E-MAIL)
Mr. Jason Chad Nash
(DELIVERED VIA E-MAIL)
Mr. Marshall M. Searcy Jr.
(DELIVERED VIA E-MAIL)
Ms. Jennifer Bruch Hogan
(DELIVERED VIA E-MAIL)

24a
APPENDIX E
In the Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-18-00025-CV
BBB INDUSTRIES, LLC, Appellant
v.
CARDONE INDUSTRIES, INC., Appellee
On Appeal from the 17th District Court
Tarrant County, Texas
Trial Court No. 017-271617-14
ORDER
We have considered “Appellant’s Motion for En
Banc Reconsideration.”
It is the court’s opinion that the motion for en
banc reconsideration should be and is hereby denied
and that the opinion and judgment of May 9, 2019
stand unchanged.
We direct our court clerk to send a notice of this
order to the attorneys of record.
Signed June 20, 2019.

25a
/s/ Elizabeth Kerr
Elizabeth Kerr
Justice
En Banc
Pittman, J. would grand motion for en banc
reconsideration

26a
APPENDIX F
In the Court of Appeals
Second Appellate District of Texas
at Fort Worth
No. 02-18-00025-CV
BBB INDUSTRIES, LLC, Appellant
v.
CARDONE INDUSTRIES, INC., Appellee
On Appeal from the 17th District Court
Tarrant County, Texas
Trial Court No. 017-271617-14
ORDER
We have considered “Appellant’s Motion for
Rehearing.”
It is the court’s opinion that the motion should be
and is hereby denied and that the opinion and
judgment of May 9, 2019 stand unchanged.
We direct our court clerk to send a notice of this
order to the attorneys of record.
Signed June 20, 2019.

27a
/s/ Elizabeth Kerr
Elizabeth Kerr
Justice
Panel: Sudderth, C.J.; and Kerr, J.1

Justice Bill Meier was a member of the original panel but has
since retired. Therefore, the two remaining justices ruled on this
motion. See Tex. R. App. P. 41.1(b).
1

28a
APPENDIX G
FILED
TARRANT COUNTY
10/11/2017 4:46 PM
THOMAS A. WILDER
DISTRICT CLERK
CAUSE NO. 017-271617-14
CARDONE
INDUSTRIES, INC.

§
§
§
Plaintiff,
§
v.
§
§
JOEL FARINA &
§
BBB INDUSTRIES, LLC, §
§
Defendants.
§
§
§

IN THE
DISTRICT COURT
OF TARRANT
COUNTY, TEXAS
17TH JUDICIAL
DISTRICT

PLAINTIFF’S SECOND AMENDED ORIGINAL
PETITION
Plaintiff, Cardone Industries, Inc. (“Cardone” or
“Plaintiff”) brings this action against Defendants
Joel Farina (“Farina”) and BBB Industries, LLC
(“BBB”; collectively referred to as “Defendants”).
Cardone seeks actual damages, exemplary damages,
attorneys’ fees, pre-judgment and post-judgment
interest, a permanent injunction, and all costs of
court. In support of Cardone’s Second Amended

29a
Original Petition, Cardone shows unto this Court the
following:
DISCOVERY CONTROL PLAN
1.
Discovery should continue to be conducted
in accordance with the Discovery Control Plan under
Level 3 of Rule 190.4 of the Texas Rules of Civil
Procedure.
PARTIES AND JURISDICTION
2.
Cardone is a corporation organized and
existing under the laws of the Commonwealth of
Pennsylvania with its principal place of business in
Philadelphia, Pennsylvania. Cardone owns and
operates a major distribution center in Arlington,
Tarrant County, Texas as well as other facilities in
South Texas.
3.
Farina, an individual, resides at 1205
Bent Creek Drive, Southlake, Tarrant County, Texas
76092.
4.
BBB is a limited liability company
organized and existing in the State of Delaware with
its principal place of business at 29627 Renaissance
Blvd., Daphne, Alabama 36526. BBB’s principal office
in Texas is located in Tarrant County located at 640
North Carroll Avenue, Southlake, Texas 76092. This
Court has personal jurisdiction over BBB because
BBB maintains an office in Tarrant County, Texas,
engages and conducts business in Texas and has
otherwise purposely availed itself of the privileges
and benefits of conducting business in Texas. BBB

30a
does not have a designated agent for service of process
in Texas.
5.
This action arises from Defendants’
actions and business in Texas and elsewhere.
Specifically, Cardone’s claims against Farina arise
from Farina’s acquisition, disclosure and use of
Cardone information, which illicit acts occurred in
whole or in substantial part in Texas. Cardone’s
claims against BBB also arise in substantial part
from, or relate to, BBB’s contacts with the State of
Texas. BBB has used and is using Cardone’s
confidential, proprietary and trade secret information
which it obtained from Farina to unfairly compete
with Cardone. BBB has further engaged in and
continues to engage in the acquisition and use of
Cardone confidential, proprietary and trade secret
information which it illicitly obtained from other
sources, where such acts also occurred in whole or in
substantial part in Texas.
6.
Both Farina and BBB have already been
served and appeared herein.
CLAIM FOR RELIEF
7.
This Court has jurisdiction over this
controversy because the damages sought are within
the jurisdictional limits of this Court. Pursuant to
Rule 47, Cardone demands monetary relief over
$1,000,000.00. TEX. R. CIV. P. 47.

31a
VENUE
8.
Venue is proper in Tarrant County as to
Farina because it is the county in which all or a
substantial part of the events or omissions giving rise
to Cardone claims against him occurred. TEX. CIV.
PRAC. & REM. CODE § 15.002(a)(1). Venue is also
proper in Tarrant County because it is the county of
Farina’s residence. TEX. CIV. PRAC. & REM. CODE
§ 15.002(a)(2).
9.
Venue is proper in Tarrant County as to
BBB because venue is proper as to Farina since
Cardone’s original claims arose out of the same
transaction, occurrence, or series of transactions or
occurrences as those against Farina. TEX. CIV. PRAC.
& REM. CODE § 15.005. Venue is additionally proper
as to BBB since BBB resided and maintained its
principal place of business in Texas in Tarrant
County when a substantial part of the events and
omissions giving rise to Cardone’s claims occurred
and continue to occur. TEX. CIV. PRAC. & REM. CODE
§ 15.002 (a)(3). Venue is additionally proper as to
BBB since Tarrant County is where all or a
substantial part of the acts or omissions giving rise to
Cardone’ s claims occurred. TEX. CIV. PRAC. & REM.
CODE § 15.002 (a)(1).
FACTUAL BACKGROUND
10.
Cardone is engaged in the business of
producing and selling new and remanufactured
aftermarket automotive parts and products
throughout the United States and internationally
including, but not limited to, brake calipers, power

32a
steering products,
products.

gears

and

rack-and-pinion

11.
Farina was formerly employed as
Cardone’s Senior Vice President of Retail Accounts.
Farina was employed by Cardone in various
capacities from July 1991 until he resigned effective
September 1, 2013. Farina was employed by BBB
from September, 2013 until March, 2017.
12.
BBB is a direct competitor of Cardone and
also is engaged in the automotive parts business. Like
Cardone, BBB produces and sells new and
remanufactured aftermarket automotive parts and
products throughout the United States and
internationally including, but not limited to, brake
calipers, power steering products, gears and rackand-pinion products. Indeed, BBB has advertised,
and continues to advertise, for sale and distribution,
all of these products on its website. BBB’s website is
available and, on information and belief, accessed by
customers and potential customers while such
persons are located within the State of Texas. BBB’s
office in Texas is located at 640 North Carroll Avenue,
Southlake, Texas 76092. At that location, BBB admits
to possessing and using over $38,000 in business
personal property in connection with its operations.
13.
BBB, at times in conjunction with Farina,
has and is using Cardone’s confidential, proprietary
and trade secret information to unfairly compete with
Cardone. Such illicit acts by BBB include, but not
limited to, attempts to divert to itself customers who
currently receive products from Cardone in at least
the brake caliper and power steering market sectors.

33a
A.

Farina’s Employment with Cardone

14.
Farina commenced employment with
Cardone on or about July 5, 1991. For more than
twelve years preceding his resignation from Cardone
effective September 1, 2013, Farina was Cardone’s
Senior Vice President of Retail Accounts.
15.
In his role as Senior Vice President of
Retail Accounts, Farina was primarily responsible for
Cardone’s aftermarket retail sales operation.
16.
Since at least 1997, Farina lived in Texas
and worked for Cardone out of his Texas home, often
traveling from Texas to meet with Cardone customers
and prospective customers.
17.
As Senior Vice President of Retail
Accounts, Farina was responsible for and/or focused
on, among other things: implementing, managing and
developing the relationships between Cardone and
Cardone’s retail customers; establishing and
developing relationships with new Cardone retail
customers; meeting and communicating with
Cardone’s retail customers on a daily basis in order to
assess those customers’ ongoing automotive parts
needs and/or to assess those customers’ future needs;
identifying and tracking large actual, ongoing and/or
potential customer needs; managing retail customer
accounts and developing and maintaining action
plans for at-risk accounts; assuring the successful
performance of new customer accounts; and meeting
annual metrics in Cardone’s sales plan.

34a
18.
In this role, Farina was permitted
extensive access to, and acquired extensive
information about, all aspects of the relationship
between Cardone and its customers, including but not
limited to its retail customers, as well as all of
Cardone’s account-related trade secret and
confidential information concerning, among other
things, Cardone’s sales and marketing strategies,
pricing strategies, costs (including costs by specific
part and/or product), credit/financing information,
customer preferences and ordering history, discount
strategies, business processes and supplier
information.
19.
Indeed, Farina, as part of his
responsibilities for Cardone, played a key role in
developing,
among
other
things,
Cardone’s
confidential sales and marketing strategies and
plans, pricing and discount strategies and plans, and
business development plans and strategies. In that
regard, Farina regularly consulted with other
Cardone executives and key sales employees
regarding such strategies and plans.
20.
During Farina’s employment and to this
day, one of Cardone’s most significant and profitable
product lines is its aftermarket brake calipers. At all
times relevant hereto, Cardone held a significant
majority of the market share—approximately sixty
percent—of the brake caliper aftermarket. Cardone’s
other major product lines include power steering
products, gears and rack-and-pinion products.
21.
In order for Farina to have access to
Cardone’s trade secret and confidential information,

35a
Farina was obligated to, and did, sign various
agreements. On or about June 5, 1997, Farina signed
a “Confidentiality Agreement” which, among other
things, prohibited him from using or disclosing
without Cardone’s consent, during his employment or
following the termination of his employment, “all
information of a technical or commercial nature, in
any form, relation [sic] to [Cardone], including
(without limitation) all technical, marketing,
financial, pricing, cost, sales, product, customer,
employee and supplier information, manufacturing
techniques and processes, discoveries or ideas, which
is not known to the general public.”
22.
On or about September 19, 2006, Farina
signed a Cardone IS Department Policy (IS Policy”) as
a condition of gaining access to Cardone’s computer
equipment and network. By his signature, Farina
agreed that, inter alia, “All CARDONE-owned
information systems must be utilized for business
purposes only.” Farina also acknowledged and agreed
that “Company data sensitive or confidential in
nature must not be stored on any personal or portable
devices”
23.
Similarly, on or about January 17, 2008,
Farina signed a “Retention Agreement” pursuant to
which Farina agreed, among other things, not to use
or disclose Cardone’s confidential and proprietary
information and to return or delete all such
information upon termination of his employment with
Cardone. The Retention Agreement reiterated, and is
built on the prior conditions regarding the handling of
Cardone confidential and trade secret information.
Among other things, Farina:

36a
a. recognized that by reason of his
employment with Cardone, Farina “had
access to confidential and proprietary
information relating to the business of
Cardone, which includes, but is not
limited to, trade secrets, trade ‘knowhow,’ customer information, employee
information,
supplier
information,
manufacturing techniques and processes,
discoveries or ideas, lender information,
cost and pricing information, marketing
and sales techniques, strategies, and
programs,
investment
plans
and
opportunities, computer programs and
software, and financial strategies and
information including balance sheets,
income statements, or statements of cash
flow”;
b. acknowledged
that
the
foregoing
information “is a valuable and unique
asset of Cardone, and that [Farina] will
not, at any time during or after his
employment with Cardone” use or
disclose the foregoing information except
as required by Farina’s work for Cardone;
c.

agreed that his receipt of the benefits
available
through
the
Retention
Agreement was contingent on his
compliance with all prior agreements in
addition to his compliance with the
covenants in the Retention Agreement;

37a
d. agreed that upon termination of his
employment with Cardone, he would
“return to Cardone by the termination
date all of Cardone’s property in
[Farina’s] possession, as well as any
documents, files, papers, computer disks,
and the like (and all copies of them)
containing or relating in any way to any”
of the foregoing information; and
e.

agreed that to the extent Farina retained
any of the foregoing information in
electronic format on any personal
equipment, he would delete it.

24.
The
Retention
Agreement
further
prohibited Farina, for a period of three years following
the termination of his employment with Cardone,
from soliciting Cardone customers and suppliers to
terminate (in whole or in part) their relationship with
Cardone or refrain from entering into a relationship
with Cardone, or being employed or otherwise in a
business relationship with a competitor or supplier of
Cardone.
B.

Farina Notifies Cardone of his
Intention to Terminate the Retention
Agreement

25.
On or about February 13, 2013, Farina
submitted a letter to Cardone (the “February 13
letter”) in which Farina notified Cardone of his desire
to terminate the Retention Agreement in six months
(i.e. August 13, 2013).

38a
26.
In early March 2013, Cardone executives,
including but not limited to Chief Executive Officer
Kevin Cramton spoke with Farina in an effort to
convince him to continue his employment at Cardone
pursuant to the Retention Agreement. Farina
rebuffed these overtures, and would not commit to
remaining employed by Cardone. Instead, Farina led
Cardone to conclude that Farina either would leave
the industry entirely or, if he remained in the
industry, Farina would not directly compete with
Cardone.
27.
On or about February 13, 2013 and again
on March 16, 2013, Frank Zgrablich, then acting as
Cardone’s Executive Vice President of Human
Resources countersigned the February 13, 2013
letter. Zgrablich’s countersignature of the February
13, 2013 letter was done both without authorization
by and notice to Cardone management.
28.
By his criminal plea, discussed infra,
Farina has admitted that the February 13, 2013 letter
did not serve to abbreviate, limit or modify and duties
and obligations owed by him to Cardone as a matter
of contract or at common law.
C.

BBB Takes Material Steps to Directly
Compete With Cardone in the Retail
Aftermarket

29.
In late 2012 and early 2013, BBB had a
relatively minor presence in the retail aftermarket for
automotive parts. However, beginning in early 2013,
BBB began taking material steps to directly compete
with Cardone in the retail aftermarket.

39a
30.
In or before the February 2013 – August
2013 time frame, BBB intended to hire Farina as its
Senior Vice President – Aftermarket Retail Sales,
effective the first week of September 2013, after the
termination of the Retention Agreement. Farina’s
hire into that role—in particular, the confidential,
proprietary and/or trade secret information of
Cardone that Farina was expected to put to use for
BBB’s competitive advantage—was the lynchpin in
BBB’s strategy to aggressively compete in the retail
aftermarket.
31.
In addition to hiring Farina, since early
2013 BBB has taken other material steps to directly
compete with Cardone in the retail aftermarket,
including but not limited to acquisitions for the
purposes of offering a new product line to compete
with two of Cardone’s most robust and profitable
product offerings—brake calipers and power steering.
For example, in late July or early August 2013, BBB
acquired all of the assets of QBR Brake, a
manufacturer and supplier of brake calipers and
accessories to the automotive aftermarket which
directly competed with Cardone in the brake caliper
aftermarket. Similarly, on or about January 27, 2014,
BBB purchased the Mexico-based assets of bankrupt
Fenco Parts (and/or the assets of FAPCO, Fenco’s
Mexican based entity), another one of Cardone’s
major competitors, including Fenco’s brake caliper
line. On or about April 2010, BBB also purchased the
assets of Vistapro, a company that before its purchase
was a minor player in the power steering market
sector.

40a
32.
Since it hired Farina, BBB has solicited
several of Cardone’s retail customers seeking to take
business away from Cardone.
D.

Farina’s
Misappropriation
of
Cardone’s Confidential, Proprietary
and Trade Secret Information, and
Use of this Information on Behalf of,
and in Concert with, BBB

33.
On the afternoon of Friday August 30,
2013, Farina submitted notice via email of his
resignation from Cardone effective Sunday
September 1, 2013 (the Sunday of Labor Day
weekend).
34.
Immediately
following
Farina’s
resignation from Cardone, BBB hired Farina and
Farina began working for BBB as its Senior Vice
President—Aftermarket Retail Sales, effective on or
about September 3, 2013. Subsequent to September 3,
2013, and at all times alleged herein, Farina acted
within the course and scope of his employment with
BBB.
35.
Unbeknownst to Cardone at the time, and
in contravention of at least the IS Policy as well as his
common law obligations and fiduciary duties, while
he was still employed by Cardone, as well as
immediately following his resignation from
employment with Cardone, Farina had already
engaged in what inexorably appears to have been the
unauthorized and wholesale theft of Cardone’s most
sensitive business information, including but not
limited to Cardone’s sales and marketing strategies,

41a
pricing
strategies,
costs,
customer
account
information and supplier information, by copying this
information to an external hard drive and one or more
“flash drives”—small memory drives or devices that
can be inserted into one computer and used to copy or
record information, then inserted into a different
computer to “download” that same information.
Farina retained, transferred and/or otherwise
brought this information with him to BBB on one or
more other computer or memory storage devices so
that Farina and BBB could convert to themselves the
economic advantages of this information by soliciting
Cardone’s customers and prospects, and to unfairly
compete with Cardone.
36.
In light of the access Farina had to
Cardone’s most sensitive customer and business
information, following Farina’s departure from
Cardone to join BBB, Cardone commenced an
investigation to determine whether and, if so, the
extent to which, Farina had engaged in conduct in
violation of his contractual, statutory and/or common
law duties to Cardone. As set forth in detail below, the
evidence uncovered as a result of that investigation
reasonably led Cardone to the conclusion that Farina
has engaged in the massive misappropriation of
Cardone’s trade secret and confidential customer and
business information.
37.
Immediately following the Labor Day
weekend, Cardone requested that Farina return the
laptop computer issued to him by Cardone for use in
connection with his employment with Cardone (the
“Cardone laptop”). Farina did not return the Cardone
laptop to Cardone until September 12, 2013.

42a
38.
Upon receipt of the Cardone laptop,
Cardone had the laptop examined by a forensic
computer expert. The examination conducted by the
forensic expert revealed that:
a. Shortly before Farina submitted the
February 13 letter to Cardone, three USB
devices were connected to the Cardone
laptop for the last time—one device on
January 15, 2013, one device on January
29, 2013 and one device on February 5,
2013;
b. on the evening of August 30, 2013—the
day that Farina submitted his resignation
notice via email—the Cardone laptop
connected remotely to the Cardone
computer network, enabling the Cardone
laptop to update the Cardone emails and
contact data on the laptop;
c.

on September 1, 2013, Farina’s iPad
synchronized with the Cardone email
exchange server, updating the Cardone
emails and contacts on Farina’s iPad;

d. on September 2, 2013, after the last day of
Farina’s employment with Cardone,
Farina’s iPhone synchronized with the
Cardone email exchange server, updating
the Cardone emails and contacts on
Farina’s iPhone;
e.

on September 6, 2013, a Seagate Backup
Hard Drive (the “Seagate drive”) was

43a
connected to the Cardone laptop and
multiple files were accessed on the
Seagate drive; and
f.

on the evening of September 11, 2013, the
evening before the Cardone laptop was
returned to Cardone, a software program
called Eraser, which is designed to allow
a user to select specific files, folders
and/or locations on a hard drive and
overwrite the data thereby destroying the
data and rendering it unrecoverable, was
run, multiple times, on the Cardone
laptop attempting to erase the contents of
the Cardone laptop’s hard drive.

39.
On October 16, 2013, counsel for Cardone
sent a letter to Farina notifying Farina that Cardone’s
forensic examination had revealed the activity set
forth above and requesting to forensically examine
the devices that had been connected to the Cardone
laptop.
40.
On or about December 6, 2013, after
negotiations through counsel, Cardone and Farina
entered into an Agreement Regarding Informal
Discovery and Investigation (the “Discovery
Agreement”), pursuant to which Farina agreed to the
forensic examination of the following devices
(collectively, the “Farina Devices”): the Seagate drive,
which is owned by Farina; a laptop issued by BBB to
Farina, to which the Seagate drive had been attached
(the “BBB laptop”); a Samsung laptop owned by
Farina (the “Samsung laptop”); only one of the three
USB devices connected to the Cardone laptop which

44a
was in Farina’s possession; and Farina’s iPhone and
iPad.
41.
Following the forensic examination,
Cardone reviewed the documents on the Farina
Devices that were identified as potentially containing
Cardone’s confidential, proprietary and/or trade
secret information.
42.
Farina also agreed to return to Cardone
approximately 3,000 pages of hard copy documents
that he had retained after resigning his employment
with Cardone.
43.
With the exception of the BBB laptop,
upon information and belief the Farina Devices
remain in the possession of Farina and/or BBB, and
any confidential, proprietary and/or trade secret
information on any of the Farina Devices remains on
such device(s).
44.
Numerous files located on the Farina
Devices contain Cardone’s confidential, proprietary
and/or trade secret information, including but not
limited to files containing confidential information
regarding
Cardone’s
financial
performance,
customers,
prospective
customers,
business
opportunities, sales and marketing plans and
strategies, pricing information, pricing strategies and
considerations, customer preferences and ordering
history/terms, and contract(s) and other documents
related to Cardone and customers with which Farina
had no involvement.

45a
45.
Many of the files containing Cardone’s
confidential, proprietary and/or trade secret
information were located in a folder on the BBB
laptop named “Done’s,” an internal nickname for
Cardone used by Farina and other Cardone
employees, indicating that Farina specifically copied
files he knew to contain Cardone’s confidential,
proprietary and/or trade secret information to the
BBB laptop for the purpose of using such information
to compete against Cardone. The “Done’s” folder was
created on or about September 30, 2013. Significantly,
the “Done’s” folder was available on the BBB laptop
at least until October 20, 2013. Mysteriously,
however, the “Done’s” folder was deleted between
October 20 and October 25, 2013, the date the BBB
laptop was shut down and last accessed.
46.
In addition to the virtual treasure trove of
Cardone’s confidential, proprietary and/or trade
secret information that is located on the devices
currently in Farina’s possession, as well as the BBB
laptop to which BBB and Farina had unfettered
access until October 25, 2013, the forensic
examination conducted pursuant to the Discovery
Agreement:
a. revealed that the Seagate drive contains
an “OST” (Offline Storage Table) file with
the contents of Farina’s Cardone email
account, and that this OST file was
accessed by the BBB laptop;
b. determined that several USB devices not
previously identified by Farina were
connected to the BBB laptop and/or the

46a
Samsung laptop, only one of which Farina
has agreed to produce for a forensic
examination by a neutral consultant; and
c.

revealed that the BBB laptop was
connected to BBB’s computer network
after Farina began his employment with
BBB, providing the opportunity for
Farina to transfer Cardone’s confidential,
proprietary
and/or
trade
secret
information to BBB’s computer network.

47.
Farina also has acknowledged that he
transferred files from the BBB laptop to a second
laptop BBB provided to him as a replacement for the
BBB laptop, which was taken out of service on
October 25, 2013.
E.

The Confidential, Proprietary and
Trade Secret Cardone Information
Misappropriated by Farina and BBB

48.
While a full description of all of the
confidential information contained on the devices
examined pursuant to the Discovery Agreement
would be too voluminous to include in this Petition,
the following illustrates the types of information
copied onto these devices, including financial
performance, customers, prospective customers,
business opportunities, sales and marketing plans
and strategies, pricing information, product margins,
pricing strategies and considerations, customer
preferences and ordering history/terms, and
contract(s) and other documents related to Cardone

47a
and customers
involvement.

with

which

Farina

had

no

49.
The files and materials copied onto the
Farina Devices, including but not limited to the
Seagate drive and the BBB Laptop, were compiled at
great cost and expense to Cardone. Cardone acquired,
developed, accumulated, and/or created all of this
information using its customer records, computer
database, industry knowledge and experience, and
other confidential information concerning Cardone’s
customers to whose account information Farina
gained access during his Cardone employment.
50.
By all indications, including Farina’s
active solicitation following his resignation from
Cardone of some of the key Cardone customers to
whom this information relates, the fact that he
currently retains possession of the Seagate drive and
the Samsung laptop, each of which contains a
considerable amount of Cardone confidential,
proprietary and trade secret information, and the fact
that a considerable amount of Cardone confidential,
proprietary and trade secret information exists on the
BBB laptop, Farina has misappropriated and
retained copies or other reproductions (in stored,
electronic memory form and/or otherwise) of this
information and has provided it to and/or has been
using it for the benefit of BBB.
51.
This compilation of information, which
has been collected, refined, and distilled by and
through Cardone, is unavailable to the public, cannot
be readily duplicated by Cardone competitors, if even
at all, and is of significant economic advantage and

48a
value to Cardone. For example, to the extent this
complication of information is available, it is
restricted to individuals and/or entities who have
agreed to maintain this information in strict
confidence.
52.
This information has been developed at
great expense by Cardone over a period of many
years, constitutes a valuable compilation, amalgam,
constellation, and/or distillation of customers and
customer account data and other valuable business
information, and would take a substantial period of
time, and an enormous investment of expense, for any
competitor to attempt to acquire and/or create (if ever
it could be independently acquired or created), during
which time Cardone would continue to enjoy a
valuable, significant, and continuing competitive
advantage.
53.
Defendants’ selective use of information
taken from within this constellation of knowledge,
acquired by and through Cardone, has allowed and
will unfairly allow Defendants to continue to gain a
competitive advantage and to put Cardone at a
competitive disadvantage with respect to the
customers formerly serviced by Farina on behalf of
Cardone, and other customers Cardone has invested
enormous sums to identify, develop, and maintain
over a period of many years.
54.
Further, Defendants are in possession of,
able to use, have used and can continue to rely on or
disclose Cardone confidential, proprietary and trade
secret information that is vital to Cardone’s
competitive standing and strategic positioning in

49a
order to target and contact existing Cardone
customers. Defendants have refused to refrain from
using it to their own advantage. Indeed, upon
information and belief, Defendants already have
utilized, and it is inevitable that Defendants will,
alone and in combination with one another, continue
utilizing, the confidential and proprietary customer
information, sales terms, methods, techniques, sales
advantages, strategies, plans, and other confidential
and proprietary Cardone information learned by
Farina while at Cardone to unfairly compete with
Cardone.
55.
Armed with the confidential, proprietary
and trade secret information that Farina has
misappropriated from Cardone, Defendants are in a
position to deal, and have dealt, a significant blow to
Cardone’s business, particularly in the retail
aftermarket. Indeed, Farina was employed by BBB (a
direct competitor of Cardone) in an executive position
comparable to his position at Cardone and while so
employed serviced the same accounts he serviced on
behalf of Cardone.
56.
Farina, while he was employed by BBB,
and/or other BBB employees have called upon the
Cardone retail aftermarket customers with whom
Farina developed business relationships while at
Cardone.
57.
In addition, as mentioned above, BBB has
engaged in aggressive acquisition activity related to
the purchases of brake caliper assets to enable BBB
to roll out its new brake caliper product line, a product

50a
line for which Cardone holds approximately sixty
percent of the market share.
58.
Defendants have wrongfully used and/or
converted the information Cardone has established
and developed to conduct its business and to maintain
an advantage over its competitors, including, but not
limited to, its acquisition of information concerning
the names, contact persons, account information,
price
and
purchase
information,
timing
considerations, knowledge of pending needs or
proposals, customer preferences, priorities, and
concerns, price and cost considerations, strategies
concerning Cardone’s customer base and accounts.
59.
Each of these activities is in stark
violation of Defendants’ common law and/or
contractual obligations to Cardone; each entails
Defendants’ use and reliance upon the knowledge
acquired by Farina through his employment with
Cardone; each is dependent upon knowing
cooperation, assistance and support provided between
the Defendants; and each will directly cause Cardone
significant injury, loss, and irreparable harm.
F.

Farina Was Convicted of Felony
Misappropriation of Trade Secrets
Belonging to Cardone

60.
Farina was indicted in June 18, 2015 by a
Tarrant County grand jury for breaching Cardone’s
computer system and copying the same Cardone trade
secrets at issue in this lawsuit. This indictment
identified five felony counts, including breach of a
computer system and criminal theft of trade secrets.

51a
61.
Farina was re indicted on June 13, 2016 to
amend the count for unauthorized access of a
computer system to a first degree felony. If found
guilty under the top count of the indictment, Farina
could have spent up to 99 years in the Texas state
penitentiary.
62.
Farina’s criminal trial was scheduled to
begin on April 24, 2017. On March 21, 2017, Farina
plead guilty to a felony count of theft of Cardone trade
secrets before the 432nd Criminal District Court in
Tarrant County, Texas.
63.
Under the terms of his plea, Farina
avoided time in jail in exchange for three years’
probation revertible to ten years’ incarceration if he
were to violate any of the terms of his probation.
Further terms of Farina’s plea agreement include his
agreement to: (1) pay Cardone restitution damages;
(2) pay a fine to the State of Texas; (3) end his
employment with BBB Industries; (4) not compete
with Cardone during the term of his probation; and
(5) return all confidential and trade secret
information to Cardone and to not use or permit
others to use this information.
64.
As a necessary predicate to his guilty plea,
Farina admitted each of the elements of the
indictment for trade secret misappropriation. Farina
thus admitted that: (1) he took without Cardone’ s
consent or authorization to do so, (2) trade secret
information; (3) that he made a copy of these trade
secrets; and (4) that these trade secrets have value.

52a
G.

BBB’s
Additional
Acts
of
Misappropriation of Cardone’s Trade
Secrets

65.
Aside from and in addition to those acts
outlined
above,
BBB
has
additionally
misappropriated Cardone trade secret information to
unfairly compete in the power steering market.
66.
At times prior to 2010, Cardone was the
exclusive vendor to National Autoparts Association
(“NAPA”) for power steering. In 2010, BBB wanted to
enter the power steering market, and especially
wanted to operate as a vendor to NAPA for this
market. BBB, however, had no experience in power
steering much less any experience in how to bid in
this market and was thus unwilling to enter this
market absent guidance in bidding and cost
management. BBB therefore actively solicited NAPA
to provide it Cardone’s trade secret information—
since Cardone was the incumbent for NAPA in this
market—to enable BBB to unfairly compete in that
market.
67.
For reasons yet unknown to Cardone,
NAPA complied, sending BBB in 2010 a copy of the
Cardone arrangement sheet for NAPA power
steering. The arrangement sheet is a document which
contains many of the essential terms of the contract
between the vendor (here Cardone) and NAPA. BBB
has taken the position that the arrangement sheet is
a trade secret and thus it knew when it received this
document from NAPA that it contained Cardone trade
secret information. Nevertheless, BBB wanted to and
did use this information to unfairly and illegally

53a
advance its economic interest to enter the power
steering market sector to the detriment of Cardone.
Having and using that information contained in
Cardone’s arrangement sheet enabled BBB to obtain
a complete understanding of the terms of Cardone’s
program with NAPA including, inter alia, FOTAB
information
including
Cardone’s
FOTAB
contributions, corporate discounts and rebates for
national ad discounts, new store launch funds, sales
group commissions and core hauling discounts. BBB
has continued to use details found in the Cardone
arrangement sheet to the present day for power
steering program with NAPA.
68.
In or about March 2011, BBB also
acquired Cardone core pricing information for NAPA
power steering. Cores are the basic elements which
are returned by the customer after a given part has
failed or met its life expectancy. The core is stripped
of its seals, screws, and other components and then
cleaned before it is used in the assembly of a new
remanufactured part. Cardone maintains its core
pricing information as confidential and this
information is not generally known in the power
steering market sector. In or about 2014, BBB
additionally acquired information relating to Cardone
pricing discounts for NAPA power steering. This
information thus enabled BBB to know what it had to
bid in order to match or beat Cardone’s power steering
pricing to NAPA.
69.
At times while in Texas and in Tarrant
County, BBB was able to use, and continues to use,
this information to illicitly advance its bidding and to

54a
conduct business unlawfully obtained with NAPA for
power steering.
70.
This information has been developed at
great expense by Cardone over a period of many
years, constitutes a valuable compilation, amalgam,
constellation, and/or distillation of customers and
customer account data and other valuable business
information, and would take a substantial period of
time, and an enormous investment of expense, for any
competitor to attempt to acquire and/or create (if ever
it could be independently acquired or created), during
which time Cardone would continue to enjoy a
valuable, significant, and continuing competitive
advantage.
71.
BBB, including its former president Trey
Smart and other members of BBB management, used
that information found in the Cardone arrangement
sheet as well as Cardone core pricing and pricing
discount information to later submit bids to and to
conduct business unlawfully obtained with NAPA for
power steering and to unfairly compete with Cardone
at times while BBB maintained a presence not only in
Texas but in Tarrant County. In fact, BBB duplicated
most of the terms from the Cardone arrangement
sheet into its initial bid in 2011 and in all subsequent
bids for NAPA power steering.
72.
BBB has admitted that the Cardone
arrangement sheet and the information contained in
that sheet is a trade secret. BBB has additionally
taken the position that core pricing and price
discounts comprise confidential information. BBB has
also admitted that the possession of or use of this

55a
information would and did give BBB an unfair
competitive advantage.
73.
As a result of BBB’s unlawful acts, BBB
bid for and obtained significant NAPA power business
steering business that Cardone had previously been
the successful bidder for, thus resulting in tens of
millions of dollars in damages to Cardone. Using the
information contained in the Cardone arrangement
sheet, as well as the other Cardone information
improperly obtained by BBB, BBB began bidding for
NAPA power steering business in 2011. BBB bidding
and market initiatives to the present day use Cardone
information which BBB has admitted are Cardone’s
trade secrets. Damages resultant from BBB illegal
and improper actions are continuing in nature.
74.
BBB’s use of Cardone trade secret
information has allowed and will continue to allow
BBB to gain a competitive advantage and to put
Cardone at a competitive disadvantage with respect
to at least NAPA and potentially other customers
Cardone has invested enormous sums to identify,
develop, and maintain over a period of many years.
Cardone’s business, including its business in Tarrant
County, Texas, has been damaged as a result of BBB’s
unlawful actions in taking and using Cardone
confidential and trade secret information.
75.
BBB is in the possession of, able to use,
has used and can continue to rely on or disclose
Cardone confidential, proprietary and trade secret
information that is vital to Cardone’s competitive
standing and strategic positioning in order to target
and contact existing Cardone customers including,

56a
but not limited to, NAPA. BBB has refused to refrain
from using this information to its own advantage.
76.
Armed with the confidential, proprietary
and trade secret information, BBB is in a position to
deal, and have dealt, a significant blow to Cardone’s
business, particularly in the retail aftermarket.
CAUSES OF ACTION
Count I – Misappropriation of Trade Secrets
77.
Cardone incorporates paragraphs
through 76 by reference for all purposes.

1

78.
As referenced in detail above, Cardone
owns valuable trade secrets regarding its business.
79.
Cardone maintained, or took reasonable
precautions to maintain, the secrecy of these trade
secrets.
80.
Defendants
used
and/or
disclosed
Cardone’s trade secrets after acquiring those secrets,
including acquiring such trade secrets by improper
means.
81.
Farina’s acquisition, disclosure and use of
Cardone’s trade secrets was improper where further
Farina at all times appreciated that his acts were
both improper and illegal.
82.
BBB improperly acquired Cardone’s trade
secrets from Farina and other sources where BBB
knew or should have known, and in fact did know,

57a
that the solicitation, possession, use and disclosure of
Cardone’s trade secrets was improper.
83.
As a result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
84.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count II – Misappropriation of Confidential
Information
85.
Cardone incorporates paragraphs
through 84 by reference for all purposes.

1

86.
As referenced in detail above, Cardone
owns valuable confidential information regarding its
business that is secret or substantially secret.
87.
Cardone maintained, or took reasonable
precautions to maintain, the secrecy of such
confidential information.
88.
Defendants
used
and/or
disclosed
Cardone’s confidential information after acquiring it
by improper means.
89.
Farina’s acquisition, disclosure and use of
Cardone’s confidential information was improper,
where further Farina at all times appreciated that his
acts were both improper and illegal.
90.
BBB acquired Cardone’s confidential
information from Farina and other sources where

58a
BBB knew, should have known, and in fact did know
that its solicitation, possession, use and disclosure of
Cardone’s confidential and trade secret information
was improper.
91.
As a result of Defendants’ continuing
wrongful conduct, Cardone has suffered actual
damages within the jurisdictional limits of the Court.
92.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count III – Unfair Competition by
Misappropriation
93.
Cardone incorporates paragraphs
through 92 by reference for all purposes.

1

94.
As referenced in detail above, Defendants’
wrongful conduct constitutes an unlawful act that
interfered with Cardone’s ability to conduct its
business.
95.
Defendants’ conduct is independently
tortious, illegal, unfair, and contrary to accepted
business ethics.
96.
Specifically, Defendants misappropriated
and used, in competition with Cardone, Cardone’s
trade secrets and/or confidential information which
was created by Cardone through its expenditure of
labor, skill, and money.

59a
97.
As a result of Defendants’ continuing
wrongful conduct, Cardone has suffered actual
damages within the jurisdictional limits of the Court.
98.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count IV – Conversion
99.
Cardone incorporates paragraphs
through 98 by reference for all purposes.

1

100. As referenced in detail above, Cardone
owned, possessed, or had the legal right to immediate
possession of its trade secrets and/or confidential
information.
101. One or both of Defendants wrongfully
exercised dominion or control over Cardone’s property
in denial of and/or inconsistent with Cardone’s rights.
102. Defendants’
improper
exercise
of
dominion and control over Cardone’s property
extended both to Cardone’s tangible personal
property as well as Cardone’s intangible property
which was merged into tangible property.
103. As a result of Defendants’ continuing
wrongful conduct, Cardone has suffered actual
damages within the jurisdictional limits of the Court.
104. Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).

60a
Count V – Breach of Fiduciary Duty
105. Cardone incorporates paragraphs
through 104 by reference for all purposes.

1

106. Farina was in a position of trust with
Cardone and had a fiduciary relationship to Cardone.
107. Farina was required to act in a manner
consistent with Cardone’s trust in him and was bound
to exercise the utmost good faith and loyalty in the
performance of his duties.
108. Farina was bound to act solely in the best
interest of Cardone, free of any self-dealing, conflicts
of interest, or other abuse of Cardone for his personal
advantage.
109. Farina breached his fiduciary duties as
referenced above.
110. As a direct result of Farina’s breaches,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
111. Because Farina acted with malice and/or
fraud, Cardone is also entitled to exemplary damages.
TEX. CIV. PRAC. & REM. CODE § 41.003(a).
Count VII – Breach of Contracts
112. Cardone incorporates paragraphs
through 111 by reference for all purposes.

1

113. Cardone and Farina entered into valid
and enforceable contracts. Those contracts include

61a
the Confidentiality Agreement, IS Policy Agreement
and the Retention Agreement.
114. Cardone
performed
its
material
contractual obligations under each of the
Confidentiality, IS Policy and Retention Agreements.
115. As described above, Farina has breached
each of the Confidentiality, IS Policy and Retention
Agreements.
116. As a direct result of Farina’s breaches,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
117. Because this is an action of breach of
contract, Cardone is also entitled to attorneys’ fees.
TEX. CIV. PRAC. & REM. CODE § 38.001.
Count VIII – Conspiracy
118. Cardone incorporates paragraphs
through 117 by reference for all purposes.

1

119. Defendants were a member
combination of two or more persons.

a

of

120. The object of the combination was to
accomplish an unlawful purpose.
121. Defendants had a meeting of the minds on
the object or course of action.
122. One of the Defendants committed an
unlawful, overt act to further the object or course of
action.

62a
123. As a direct result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
Count IX – Respondent Superior
124. Cardone incorporates paragraphs
through 123 by reference for all purposes.

1

125. Apart from its liability resultant from its
direct tortious acts, BBB is further vicariously liable
to Cardone under the doctrine of respondent superior.
126. As a direct result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
Count X – Permanent Injunction
127. Cardone incorporates paragraphs
through 126 by reference for all purposes.

1

128. Cardone requests a permanent injunction
issue against the Defendants prohibiting Defendants
from using and disclosing Cardone’s confidential,
proprietary and trade secret information.
CONDITIONS PRECEDENT
129. All conditions precedent for relief have
been performed or have occurred.
JURY DEMAND
130.

Cardone demands a jury trial.

63a
PRAYER
For these reasons, Cardone asks Defendants be
cited to appear and answer and, on final trial, that
Cardone have judgment against Defendants for:
A. actual
Defendants;

damages

against

one

or

both

B. exemplary damages against one or both
Defendants;
C. Cardone’s reasonable attorneys’ fees;
D. pre-judgment and post-judgment interest as
allowed by law;
E. a permanent injunction; and
F. costs of court.
Cardone finally requests that it be awarded all
other relief, at law or in equity, to which it may be
justly entitled.
Respectfully submitted,
/s/ Gregory M. Luck
Thomas W. Sankey
State Bar No. 17635670
twsankey@duanemorris.com
Gregory M. Luck
State Bar No. 12666380
gmluck@duanemorris.com
Wesley W. Yuan
State Bar No. 24050353

64a
wwyuan@duanemorris.com
Corey M. Weideman
State Bar No. 24042434
cmweideman@duanemorris.com
Cameron J. Asby
State Bar No. 24078160
cjasby@duanemorris.com
DUANE MORRIS LLP
1330 Post Oak Blvd.,
Suite 800
Houston, TX 77056
Tel.: 713.402.3900
Fax: 713.402.3901
M. Kevin Queenan,
SB#16427150
kevin@queenanlaw.com
Carlos Lopez
State Bar No. 24083414
carlos@queenanlaw.com
Queenan Law Firm, P.C.
731 Station Drive
Arlington, Texas 76015
(817) 635-3333
(817) 635-4444 (FAX)
ATTORNEYS FOR PLAINTIFF,
CARDONE INDUSTRIES, INC.

65a
APPENDIX H
FILED
TARRANT COUNTY
1/9/2015 4:47:48 PM
THOMAS A. WILDER
DISTRICT CLERK
CAUSE NO. 017-271617-14
CARDONE
INDUSTRIES, INC.

§
§
§
Plaintiff,
§
v.
§
§
JOEL FARINA &
§
BBB INDUSTRIES, LLC, §
§
Defendants.
§
§
§

IN THE
DISTRICT COURT
OF TARRANT
COUNTY, TEXAS
17TH JUDICIAL
DISTRICT

PLAINTIFF’S FIRST AMENDED ORIGINAL
PETITION
Plaintiff, Cardone Industries, Inc. (“Cardone” or
“Plaintiff”) brings this action against Defendants
Joel Farina (“Farina”) and BBB Industries, LLC
(“BBB”; collectively referred to as “Defendants”).
Cardone seeks actual damages, exemplary damages,
attorneys’ fees, pre-judgment and post-judgment
interest, a permanent injunction, and all costs of
court. In support of Cardone’s First Amended

66a
Original Petition, Cardone shows unto this Court the
following:
DISCOVERY CONTROL PLAN
1.
Discovery should be conducted in
accordance with the Discovery Control Plan under
Level 3 of Rule 190.4 of the Texas Rules of Civil
Procedure.
PARTIES AND JURISDICTION
2.
Cardone is a corporation organized and
existing under the laws of the Commonwealth of
Pennsylvania with its principal place of business in
Philadelphia, Pennsylvania.
3.
Farina, an individual, resides at 1205
Bent Creek Drive, Southlake, Tarrant County, Texas
76092. Farina has been served and appeared herein.
4.
BBB is a limited liability company
organized and existing in the State of Delaware with
its principal place of business at 5640 Commerce
Boulevard E, Mobile, AL 36619. This Court has
personal jurisdiction over BBB because BBB engages
and conducts business in Texas and purposely availed
itself of the privileges and benefits of conducting
business in Texas; does not have a designated agent
for service of process in Texas; and this action arises
from BBB’s business in Texas. Specifically, Cardone’s
claims against BBB arise from or relate to BBB’s
contacts with the State of Texas because BBB is using
Cardone’s confidential, proprietary and trade secret
information to unfairly compete with Cardone,

67a
including but not limited to attempting to divert to
itself customers who currently receive such products
from Cardone. BBB has been served and appeared
herein.
CLAIM FOR RELIEF
5.
This Court has jurisdiction over this
controversy because the damages sought are within
the jurisdictional limits of this Court. Pursuant to
Rule 47, Cardone demands monetary relief over
$1,000,000.00. TEX. R. CIV. P. 47.
VENUE
6.
Venue is proper in Tarrant County
because it is the county in which all or a substantial
part of the events or omissions giving rise to the claim
occurred. TEX. CIV. PRAC. & REM. CODE § 15.002(a)(1).
Venue is also proper in Tarrant County because it is
the county of Farina’s residence. TEX. CIV. PRAC. &
REM. CODE § 15.002(a)(2). Venue is also proper in
Tarrant County as to BBB because venue is proper as
to Farina and all of the claims arise out of the same
transaction, occurrence, or series of transactions or
occurrences. TEX. CIV. PRAC. & REM. CODE § 15.005.
FACTUAL BACKGROUND
7.
Cardone is engaged in the business of
producing and selling new and remanufactured
aftermarket automotive parts and products
throughout the United States and internationally
including, but not limited to, brake calipers, power

68a
steering products,
products.

gears

and

rack-and-pinion

8.
Farina was formerly employed as
Cardone’s former Senior Vice President of Retail
Accounts. Farina was employed by Cardone in
various capacities from July 1991 until he resigned
effective September 1, 2013.
9.
BBB is a direct competitor of Cardone, and
also is engaged in the automotive parts business. Like
Cardone, BBB produces and sells new and
remanufactured aftermarket automotive parts and
products throughout the United States and
internationally including, but not limited to, brake
calipers, power steering products, gears and rackand-pinion products. Indeed, BBB has advertised,
and continues to advertise, all of these products on its
website.
10.
On information and belief, BBB, in
conjunction with Farina, is using Cardone’s
confidential, proprietary and trade secret information
to unfairly compete with Cardone. Such illicit acts by
BBB include, but not limited to, attempts to divert to
itself customers who currently receive products from
Cardone.
Farina’s Employment with Cardone
11.
Farina commenced employment with
Cardone on or about July 5, 1991. For more than
twelve years preceding his resignation from Cardone
effective September 1, 2013, Farina was Cardone’s
Senior Vice President of Retail Accounts.

69a
12.
In his role as Senior Vice President of
Retail Accounts, Farina was primarily responsible for
Cardone’s aftermarket retail sales operation.
13.
Since at least 1997, Farina lived in Texas
and worked for Cardone out of his Texas home, often
traveling from Texas to meet with Cardone customers
and prospective customers.
14.
As Senior Vice President of Retail
Accounts, Farina was responsible for and/or focused
on, among other things: implementing, managing and
developing the relationships between Cardone and
Cardone’s retail customers; establishing and
developing relationships with new Cardone retail
customers; meeting and communicating with
Cardone’s retail customers on a daily basis in order to
assess those customers’ ongoing automotive parts
needs and/or to assess those customers’ future needs;
identifying and tracking large actual, ongoing and/or
potential customer needs; managing retail customer
accounts and developing and maintaining action
plans for at-risk accounts; assuring the successful
performance of new customer accounts; and meeting
annual metrics in Cardone’s sales plan.
15.
In this role, Farina was permitted
extensive access to, and acquired extensive
information about, all aspects of the relationship
between Cardone and its customers, including but not
limited to its retail customers, as well as all of
Cardone’s account-related trade secret and
confidential information concerning, among other
things, Cardone’s sales and marketing strategies,
pricing strategies, costs (including costs by specific

70a
part and/or product), credit/financing information,
customer preferences and ordering history, discount
strategies, business processes and supplier
information.
16.
Indeed, Farina, as part of his
responsibilities for Cardone, played a key role in
developing,
among
other
things,
Cardone’s
confidential sales and marketing strategies and
plans, pricing and discount strategies and plans, and
business development plans and strategies. In that
regard, Farina regularly consulted with other
Cardone executives and key sales employees
regarding such strategies and plans.
17.
During Farina’s employment and to this
day, one of Cardone’s most significant and profitable
product lines is its aftermarket brake calipers. At all
times relevant hereto, Cardone held a significant
majority of the market share—approximately sixty
percent—of the brake caliper aftermarket. Cardone’s
other major product lines include power steering
products, gears and rack-and-pinion products.
18.
In order for Farina to have access to
Cardone’s trade secret and confidential information,
Farina was obligated to, and did, sign various
agreements. On or about June 5, 1997, Farina signed
a “Confidentiality Agreement” which, among other
things, prohibited him from using or disclosing
without Cardone’s consent, during his employment or
following the termination of his employment, “all
information of a technical or commercial nature, in
any form, relation [sic] to [Cardone], including
(without limitation) all technical, marketing,

71a
financial, pricing, cost, sales, product, customer,
employee and supplier information, manufacturing
techniques and processes, discoveries or ideas, which
is not known to the general public.”
19.
On or about September 19, 2006, Farina
signed a Cardone IS Department Policy (IS Policy”) as
a condition of gaining access to Cardone’s computer
equipment and network. By his signature, Farina
agreed that, inter alia, “All CARDONE-owned
information systems must be utilized for business
purposes only.” Farina also acknowledged and agreed
that “Company data sensitive or confidential in
nature must not be stored on any personal or portable
devices”
20.
Similarly, on or about January 17, 2008,
Farina signed a “Retention Agreement” pursuant to
which Farina agreed, among other things, not to use
or disclose Cardone’s confidential and proprietary
information and to return or delete all such
information upon termination of his employment with
Cardone. The Retention Agreement reiterated, and is
built on the prior conditions regarding the handling of
Cardone confidential and trade secret information.
Among other things, Farina:
a. recognized that by reason of his
employment with Cardone, Farina “had
access to confidential and proprietary
information relating to the business of
Cardone, which includes, but is not
limited to, trade secrets, trade ‘knowhow,’ customer information, employee
information,
supplier
information,

72a
manufacturing techniques and processes,
discoveries or ideas, lender information,
cost and pricing information, marketing
and sales techniques, strategies, and
programs,
investment
plans
and
opportunities, computer programs and
software, and financial strategies and
information including balance sheets,
income statements, or statements of cash
flow”;
b. acknowledged
that
the
foregoing
information “is a valuable and unique
asset of Cardone, and that [Farina] will
not, at any time during or after his
employment with Cardone” use or
disclose the foregoing information except
as required by Farina’s work for Cardone;
c. agreed that his receipt of the benefits
available
through
the
Retention
Agreement was contingent on his
compliance with all prior agreements in
addition to his compliance with the
covenants in the Retention Agreement;
d. agreed that upon termination of his
employment with Cardone, he would
“return to Cardone by the termination
date all of Cardone’s property in
[Farina’s] possession, as well as any
documents, files, papers, computer disks,
and the like (and all copies of them)
containing or relating in any way to any”
of the foregoing information; and

73a
e. agreed that to the extent Farina retained
any of the foregoing information in
electronic format on any personal
equipment, he would delete it.
21.
The
Retention
Agreement
further
prohibited Farina, for a period of three years following
the termination of his employment with Cardone,
from soliciting Cardone customers and suppliers to
terminate (in whole or in part) their relationship with
Cardone or refrain from entering into a relationship
with Cardone, or being employed or otherwise in a
business relationship with a competitor or supplier of
Cardone.
Farina Notifies Cardone of his Intention to
Terminate the Retention Agreement
22.
On or about February 13, 2013, Farina
submitted a letter to Cardone (the “February 13
letter”) in which Farina notified Cardone of his desire
to terminate the Retention Agreement in six months
(i.e. August 13, 2013).
23.
In early March 2013, Cardone executives,
including but not limited to Chief Executive Officer
Kevin Cramton spoke with Farina in an effort to
convince him to continue his employment at Cardone
pursuant to the Retention Agreement. Farina
rebuffed these overtures, and would not commit to
remaining employed by Cardone. Instead, Farina led
Cardone to conclude that Farina either would leave
the industry entirely or, if he remained in the
industry, Farina would not directly compete with
Cardone.

74a
24.
On or about February 13, 2013 and again
on March 16, 2013, Frank Zgrablich, then acting as
Cardone’s Executive Vice President of Human
Resources countersigned the February 13, 2013
letter. Zgrablich’s countersignature of the February
13, 2013 letter was done both without authorization
by and notice to Cardone management.
BBB Takes Material Steps to Directly Compete
With Cardone in the Retail Aftermarket
25.
In late 2012 and early 2013, BBB had a
relatively minor presence in the retail aftermarket for
automotive parts. However, beginning in early 2013,
BBB began taking material steps to directly compete
with Cardone in the retail aftermarket.
26.
Upon information and belief, in or before
the February 2013 – August 2013 time frame, BBB
intended to hire Farina as its Senior Vice President –
Aftermarket Retail Sales, effective the first week of
September 2013, after the termination of the
Retention Agreement. Farina’s hire into that role – in
particular, the confidential, proprietary and/or trade
secret information of Cardone that Farina was
expected to put to use for BBB’s competitive
advantage—was the lynchpin in BBB’s strategy to
aggressively compete in the retail aftermarket.
27.
In addition to hiring Farina, since early
2013 BBB has taken other material steps to directly
compete with Cardone in the retail aftermarket,
including but not limited to acquisitions for the
purposes of offering a new product line to compete
with one of Cardone’s most robust and profitable

75a
product offerings – brake calipers. For example, in
late July or early August 2013, BBB acquired all of
the assets of QBR Brake, a manufacturer and
supplier of brake calipers and accessories to the
automotive aftermarket which directly competed with
Cardone in the brake caliper aftermarket. Similarly,
on or about January 27, 2014, BBB purchased the
Mexico-based assets of bankrupt Fenco Parts (and/or
the assets of FAPCO, Fenco’s Mexican based entity),
another one of Cardone’s major competitors, including
Fenco’s brake caliper line.
28.
Upon information and belief, since it hired
Farina, BBB also has solicited several of Cardone’s
retail customers seeking to take business away from
Cardone.
Farina’s Misappropriation of Cardone’s
Confidential, Proprietary and Trade Secret
Information, and Use of this Information on
Behalf of, and in Concert with, BBB
29.
On the afternoon of Friday August 30,
2013, Farina submitted notice via email of his
resignation from Cardone effective Sunday
September 1, 2013 (the Sunday of Labor Day
weekend).
30.
Immediately
following
Farina’s
resignation from Cardone, BBB hired Farina and
Farina began working for BBB as its Senior Vice
President – Aftermarket Retail Sales, effective on or
about September 3, 2013. Subsequent to September 3,
2013, and at all times alleged herein, Farina acted

76a
within the course and scope of his employment with
BBB.
31.
Unbeknownst to Cardone at the time, and
in contravention of at least the IS Policy as well as his
common law obligations and fiduciary duties, while
he was still employed by Cardone, as well as
immediately following his resignation from
employment with Cardone, Farina had already
engaged in what inexorably appears to have been the
unauthorized and wholesale theft of Cardone’s most
sensitive business information, including but not
limited to Cardone’s sales and marketing strategies,
pricing
strategies,
costs,
customer
account
information and supplier information, by copying this
information to an external hard drive and one or more
“flash drives” – small memory drives or devices that
can be inserted into one computer and used to copy or
record information, then inserted into a different
computer to “download” that same information.
Farina retained, transferred and/or otherwise
brought this information with him to BBB on one or
more other computer or memory storage devices so
that Farina and BBB could convert to themselves the
economic advantages of this information by soliciting
Cardone’s customers and prospects, and to unfairly
compete with Cardone.
32.
In light of the access Farina had to
Cardone’s most sensitive customer and business
information, following Farina’s departure from
Cardone to join BBB, Cardone commenced an
investigation to determine whether and, if so, the
extent to which, Farina had engaged in conduct in
violation of his contractual, statutory and/or common

77a
law duties to Cardone. As set forth in detail below, the
evidence uncovered as a result of that investigation
reasonably led Cardone to the conclusion that Farina
has engaged in the massive misappropriation of
Cardone’s trade secret and confidential customer and
business information.
33.
Immediately following the Labor Day
weekend, Cardone requested that Farina return the
laptop computer issued to him by Cardone for use in
connection with his employment with Cardone (the
“Cardone laptop”). Farina did not return the Cardone
laptop to Cardone until September 12, 2013.
34.
Upon receipt of the Cardone laptop,
Cardone had the laptop examined by a forensic
computer expert. The examination conducted by the
forensic expert revealed that:
a. Shortly before Farina submitted the
February 13 letter to Cardone, three USB
devices were connected to the Cardone
laptop for the last time—one device on
January 15, 2013, one device on January
29, 2013 and one device on February 5,
2013;
b. on the evening of August 30, 2013—the
day that Farina submitted his resignation
notice via email—the Cardone laptop
connected remotely to the Cardone
computer network, enabling the Cardone
laptop to update the Cardone emails and
contact data on the laptop;

78a
c. on September 1, 2013, Farina’s iPad
synchronized with the Cardone email
exchange server, updating the Cardone
emails and contacts on Farina’s iPad;
d. on September 2, 2013, after the last day of
Farina’s employment with Cardone,
Farina’s iPhone synchronized with the
Cardone email exchange server, updating
the Cardone emails and contacts on
Farina’s iPhone;
e. on September 6, 2013, a Seagate Backup
Hard Drive (the “Seagate drive”) was
connected to the Cardone laptop and
multiple files were accessed on the
Seagate drive; and
f.

on the evening of September 11, 2013, the
evening before the Cardone laptop was
returned to Cardone, a software program
called Eraser, which is designed to allow
a user to select specific files, folders
and/or locations on a hard drive and
overwrite the data thereby destroying the
data and rendering it unrecoverable, was
run on the Cardone laptop attempting to
erase the contents of the Cardone laptop’s
hard drive.

35.
On October 16, 2013, counsel for Cardone
sent a letter to Farina notifying Farina that Cardone’s
forensic examination had revealed the activity set
forth above and requesting to forensically examine

79a
the devices that had been connected to the Cardone
laptop.
36.
On or about December 6, 2013, after
negotiations through counsel, Cardone and Farina
entered into an Agreement Regarding Informal
Discovery and Investigation (the “Discovery
Agreement”), pursuant to which Farina agreed to the
forensic examination of the following devices
(collectively, the “Farina Devices”): the Seagate drive,
which is owned by Farina; a laptop issued by BBB to
Farina, to which the Seagate drive had been attached
(the “BBB laptop”); a Samsung laptop owned by
Farina (the “Samsung laptop”); only one of the three
USB devices connected to the Cardone laptop which
was in Farina’s possession; and Farina’s iPhone and
iPad.
37.
Following the forensic examination,
Cardone reviewed the documents on the Farina
Devices that were identified as potentially containing
Cardone’s confidential, proprietary and/or trade
secret information.
38.
Farina also agreed to return to Cardone
approximately 3,000 pages of hard copy documents
that he had retained after resigning his employment
with Cardone.
39.
With the exception of the BBB laptop,
upon information and belief the Farina Devices
remain in the possession of Farina and/or BBB, and
any confidential, proprietary and/or trade secret
information on any of the Farina Devices remains on
such device(s).

80a
40.
Numerous files located on the Farina
Devices contain Cardone’s confidential, proprietary
and/or trade secret information, including but not
limited to files containing confidential information
regarding
Cardone’s
financial
performance,
customers,
prospective
customers,
business
opportunities, sales and marketing plans and
strategies, pricing information, pricing strategies and
considerations, customer preferences and ordering
history/terms, and contract(s) and other documents
related to Cardone and customers with which Farina
had no involvement.
41.
Many of the files containing Cardone’s
confidential, proprietary and/or trade secret
information were located in a folder on the BBB
laptop named “Done’s,” an internal nickname for
Cardone used by Farina and other Cardone
employees, indicating that Farina specifically copied
files he knew to contain Cardone’s confidential,
proprietary and/or trade secret information to the
BBB laptop for the purpose of using such information
to compete against Cardone. The “Done’s” folder was
created on or about September 30, 2013. Significantly,
the “Done’s” folder was available on the BBB laptop
at least until October 20, 2013. Mysteriously,
however, the “Done’s” folder was deleted between
October 20 and October 25, 2013, the date the BBB
laptop was shut down and last accessed.
42.
In addition to the virtual treasure trove of
Cardone’s confidential, proprietary and/or trade
secret information that is located on the devices
currently in Farina’s possession, as well as the BBB
laptop to which BBB and Farina had unfettered

81a
access until October 25, 2013, the forensic
examination conducted pursuant to the Discovery
Agreement:
a. revealed that the Seagate drive contains
an “OST” (Offline Storage Table) file with
the contents of Farina’s Cardone email
account, and that this OST file was
accessed by the BBB laptop;
b. determined that several USB devices not
previously identified by Farina were
connected to the BBB laptop and/or the
Samsung laptop, only one of which Farina
has agreed to produce for a forensic
examination by a neutral consultant; and
c. revealed that the BBB laptop was
connected to BBB’s computer network
after Farina began his employment with
BBB, providing the opportunity for
Farina to transfer Cardone’s confidential,
proprietary
and/or
trade
secret
information to BBB’s computer network.
43.
Farina also has acknowledged that he
transferred files from the BBB laptop to a second
laptop BBB provided to him as a replacement for the
BBB laptop, which was taken out of service on
October 25, 2013.

82a
The Confidential, Proprietary and Trade
Secret Cardone Information Misappropriated
by Defendants
44.
While a full description of all of the
confidential information contained on the devices
examined pursuant to the Discovery Agreement
would be too voluminous to include in this Petition,
the following is a summary illustrating the types of
information copied onto these devices, including
financial performance, customers, prospective
customers, business opportunities, sales and
marketing plans and strategies, pricing information,
product
margins,
pricing
strategies
and
considerations, customer preferences and ordering
history/terms, and contract(s) and other documents
related to Cardone and customers with which Farina
had no involvement.
45.
The files and materials copied onto the
Farina Devices, including but not limited to the
Seagate drive and the BBB Laptop, were compiled at
great cost and expense to Cardone. Cardone acquired,
developed, accumulated, and/or created all of this
information using its customer records, computer
database, industry knowledge and experience, and
other confidential information concerning Cardone’s
customers to whose account information Farina
gained access during his Cardone employment.
46.
By all indications, including Farina’s
active solicitation following his resignation from
Cardone of some of the key Cardone customers to
whom this information relates, the fact that he
currently retains possession of the Seagate drive and

83a
the Samsung laptop, each of which contains a
considerable amount of Cardone confidential,
proprietary and trade secret information, and the fact
that a considerable amount of Cardone confidential,
proprietary and trade secret information exists on the
BBB laptop, Farina has misappropriated and
retained copies or other reproductions (in stored,
electronic memory form and/or otherwise) of this
information and has provided it to and/or has been
using it for the benefit of BBB.
47.
This compilation of information, which
has been collected, refined, and distilled by and
through Cardone, is unavailable to the public, cannot
be readily duplicated by Cardone competitors, if even
at all, and is of significant economic advantage and
value to Cardone. For example, to the extent this
complication of information is available, it is
restricted to individuals and/or entities who have
agreed to maintain this information in strict
confidence.
48.
This information has been developed at
great expense by Cardone over a period of many
years, constitutes a valuable compilation, amalgam,
constellation, and/or distillation of customers and
customer account data and other valuable business
information, and would take a substantial period of
time, and an enormous investment of expense, for any
competitor to attempt to acquire and/or create (if ever
it could be independently acquired or created), during
which time Cardone would continue to enjoy a
valuable, significant, and continuing competitive
advantage.

84a
49.
Defendants’ selective use of information
taken from within this constellation of knowledge,
acquired by and through Cardone, has allowed and
will unfairly allow Defendants to continue to gain a
competitive advantage and to put Cardone at a
competitive disadvantage with respect to the
customers formerly serviced by Farina on behalf of
Cardone, and other customers Cardone has invested
enormous sums to identify, develop, and maintain
over a period of many years.
50.
Further, Defendants are in possession of,
able to use, have used and can continue to rely on or
disclose Cardone confidential, proprietary and trade
secret information that is vital to Cardone’s
competitive standing and strategic positioning in
order to target and contact existing Cardone
customers. Defendants have refused to refrain from
using it to their own advantage. Indeed, upon
information and belief, Defendants already have
utilized, and it is inevitable that Defendants will,
alone and in combination with one another, continue
utilizing, the confidential and proprietary customer
information, sales terms, methods, techniques, sales
advantages, strategies, plans, and other confidential
and proprietary Cardone information learned by
Farina while at Cardone to unfairly compete with
Cardone.
51.
Armed with the confidential, proprietary
and trade secret information that Farina has
misappropriated from Cardone, Defendants are in a
position to deal a significant blow to Cardone’s
business, particularly in the retail aftermarket.
Indeed, Farina is employed by BBB (a direct

85a
competitor of Cardone) in an executive position
comparable to his position at Cardone and attempting
to service the same accounts he serviced on behalf of
Cardone.
52.
Upon information and belief, Farina
and/or other BBB employees have called upon the
Cardone retail aftermarket customers with whom
Farina developed business relationships while at
Cardone.
53.
In addition, as mentioned above, BBB has
engaged in aggressive acquisition activity related to
the purchases of brake caliper assets to enable BBB
to roll out its new brake caliper product line, a product
line for which Cardone holds approximately sixty
percent of the market share.
54.
Defendants have wrongfully used and/or
converted the information Cardone has established
and developed to conduct its business and to maintain
an advantage over its competitors, including, but not
limited to, its acquisition of information concerning
the names, contact persons, account information,
price
and
purchase
information,
timing
considerations, knowledge of pending needs or
proposals, customer preferences, priorities, and
concerns, price and cost considerations, strategies
concerning Cardone’s customer base and accounts.
55.
Each of these activities is in stark
violation of Defendants’ common law and/or
contractual obligations to Cardone; each entails
Defendants’ use and reliance upon the knowledge
acquired by Farina through his employment with

86a
Cardone; each is dependent upon knowing
cooperation, assistance and support provided between
the Defendants; and each will directly cause Cardone
significant injury, loss, and irreparable harm.
CAUSES OF ACTION
Count I – Misappropriation of Trade Secrets
56.
Cardone incorporates paragraphs
through 55 by reference for all purposes.

1

57.
As referenced in detail above, Cardone
owns valuable trade secrets regarding its business.
58.
Cardone maintained, or took reasonable
precautions to maintain, the secrecy of those trade
secrets.
59.
Defendants
used
and/or
disclosed
Cardone’s trade secrets after acquiring those secrets
by improper means.
60.
BBB acquired Cardone’s trade secrets
from Farina and BBB knew or should have known
that Farina’s disclosure of Cardone’s trade secrets to
BBB was improper.
61.
As a result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
62.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).

87a
Count II – Misappropriation of Confidential
Information
63.
Cardone incorporates paragraphs
through 62 by reference for all purposes.

1

64.
As referenced in detail above, Cardone
owns valuable confidential information regarding its
business that is secret or substantially secret.
65.
Cardone maintained, or took reasonable
precautions to maintain, the secrecy of such
confidential information.
66.
Defendants
used
and/or
disclosed
Cardone’s confidential information after acquiring it
by improper means. BBB acquired Cardone’s
confidential information from Farina and BBB knew
or should have known that Farina’s use and/or
disclosure of Cardone’s confidential information to
BBB was improper.
67.
As a result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
68.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count III – Unfair Competition by
Misappropriation
69.
Cardone incorporates paragraphs
through 68 by reference for all purposes.

1

88a
70.
As referenced in detail above, Defendants’
wrongful conduct constitutes an unlawful act that
interfered with Cardone’s ability to conduct its
business.
71.
Defendants’ conduct is independently
tortious, illegal, unfair, and contrary to accepted
business ethics.
72.
Specifically, Defendants misappropriated
and used, in competition with Cardone, Cardone’s
trade secrets and/or confidential information which
was created by Cardone through its expenditure of
labor, skill, and money.
73.
As a result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
74.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count IV – Conversion
75.
Cardone incorporates paragraphs
through 74 by reference for all purposes.

1

76.
As referenced in detail above, Cardone
owned, possessed, or had the legal right to immediate
possession of its trade secrets and/or confidential
information.
77.
Defendants
wrongfully
exercised
dominion or control over Cardone’s property in denial
of and/or inconsistent with Cardone’s rights. .

89a
78.
Defendants’
improper
exercise
of
dominion and control over Cardone’s property
extended both to Cardone’s tangible personal
property as well as Cardone’s intangible property
which was merged into tangible property.
79.
As a result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.
80.
Because Defendants acted with malice,
Cardone is also entitled to exemplary damages. TEX.
CIV. PRAC. & REM. CODE § 41.003(a)(2).
Count V – Breach of Fiduciary Duty
81.
Cardone incorporates paragraphs
through 80 by reference for all purposes.

1

82.
Farina was in a position of trust with
Cardone and had a fiduciary relationship to Cardone.
83.
Farina was required to act in a manner
consistent with Cardone’s trust in him and was bound
to exercise the utmost good faith and loyalty in the
performance of his duties.
84.
Farina was bound to act solely in the best
interest of Cardone, free of any self-dealing, conflicts
of interest, or other abuse of Cardone for his personal
advantage.
85.
Farina breached his fiduciary duties as
referenced above.

90a
86.
As a direct result of Farina’s breaches,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
87.
Because Farina acted with malice and/or
fraud, Cardone is also entitled to exemplary damages.
TEX. CIV. PRAC. & REM. CODE § 41.003(a).
Count VII – Breach of Contracts
88.
Cardone incorporates paragraphs
through 87 by reference for all purposes.

1

89.
Cardone and Farina entered into valid
and enforceable contracts. Those contracts include
the Confidentiality Agreement, IS Policy Agreement
and the Retention Agreement.
90.
Cardone
performed
its
material
contractual obligations under each of the
Confidentiality, IS Policy and Retention Agreements.
91.
As described above, Farina has breached
each of the Confidentiality, IS Policy and Retention
Agreements.
92.
As a direct result of Farina’s breaches,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
93.
Because this is an action of breach of
contract, Cardone is also entitled to attorneys’ fees.
TEX. CIV. PRAC. & REM. CODE § 38.001.

91a
Count VIII – Conspiracy
94.
Cardone incorporates paragraphs
through 93 by reference for all purposes.

1

95.
Defendants were a member
combination of two or more persons.

a

of

96.
The object of the combination was to
accomplish an unlawful purpose.
97.
Defendants had a meeting of the minds on
the object or course of action.
98.
One of the Defendants committed an
unlawful, overt act to further the object or course of
action.
99.
As a direct result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the court.
Count IX – Respondent Superior
100. Cardone incorporates paragraphs
through 99 by reference for all purposes.

1

101. Apart from its liability resultant from its
direct tortious acts, BBB is further vicariously liable
to Cardone under the doctrine of respondent superior.
102. As a direct result of Defendants’ conduct,
Cardone has suffered actual damages within the
jurisdictional limits of the Court.

92a
Count X – Permanent Injunction
103. Cardone incorporates paragraphs
through 102 by reference for all purposes.

1

104. Cardone requests a permanent injunction
issue against the Defendants prohibiting Defendants
from using and disclosing Cardone’s confidential,
proprietary and trade secret information.
CONDITIONS PRECEDENT
105. All conditions precedent for relief have
been performed or have occurred.
JURY DEMAND
106.

Cardone demands a jury trial.
PRAYER

For these reasons, Cardone asks Defendants be
cited to appear and answer and, on final trial, that
Cardone have judgment against Defendants for:
A. actual damages
Defendants;

against

one

or

both

B. exemplary damages against one or both
Defendants;
C. Cardone’s attorneys’ fees;
D. pre-judgment and post-judgment interest as
allowed by law;
E. a permanent injunction, and

93a
F.

costs of court.

Cardone finally requests that it be awarded all
other relief, at law or in equity, to which it may be
justly entitled.
Respectfully submitted,
/s/ Gregory M. Luck
Thomas W. Sankey
State Bar No. 17635670
twsankey@duanemorris.com
Gregory M. Luck
State Bar No. 12666380
gmluck@duanemorris.com
Wesley W. Yuan
State Bar No. 24050353
wwyuan@duanemorris.com
Corey M. Weideman
State Bar No. 24042434
cmweideman@duanemorris.com
Cameron J. Asby
State Bar No. 24078160
cjasby@duanemorris.com
DUANE MORRIS LLP
1330 Post Oak Blvd.,
Suite 800
Houston, TX 77056
Tel.: 713.402.3900
Fax: 713.402.3901
M. Kevin Queenan,
SB#16427150
kevin@queenanlaw.com
Carlos Lopez,

94a
State Bar No. 24083414
carlos@queenanlaw.com
Queenan Law Firm, P.C.
731 Station Drive
Arlington, Texas 76015
(817) 635-3333
(817) 635-4444 (FAX)
ATTORNEYS FOR PLAINTIFF,
CARDONE INDUSTRIES, INC.

